HHS/OIG, Audit -"Audit of Medicare Contractor's Pension Segmentation
Blue Cross Blue Shield of Tennessee,"(A-07-03-03043)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Contractor's Pension Segmentation Blue Cross Blue
Shield of Tennessee," (A-07-03-03043)
October 4, 2004
Complete
Text of Report is available in PDF format (257 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the accuracy of the update of
Medicare segment assets from January 1, 1993 to January 1, 2002 for Blue Cross
and Blue Shield of Tennessee.  We found that Tennessee had overstated
its Medicare segment pension assets by $610,201 as of January 1, 2002.  Tennessee
should recognize Medicare segment pension assets of $3,348,862 as of January
1, 2002.  Additionally, Tennessee should implement controls to ensure
that the Medicare segment is identified in accordance with the Medicare contract
and updated in accordance with Cost Accounting Standards 412 and 413.  Tennessee
agreed with our recommendations.